   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




October 4, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Philadelphia Parent Child Center, Inc.
               (A-03-09-00368)


The attached final report provides the results of our limited scope review at Philadelphia Parent
Child Center, Inc. This review was requested by the Administration for Children and Families,
Office of Head Start, as part of its overall assessment of Head Start grantees that have applied for
additional funding under the American Recovery and Reinvestment Act of 2009.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-03-09-00368 in all correspondence.


Attachment
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
  REVIEW AT PHILADELPHIA
 PARENT CHILD CENTER, INC.




                   Daniel R. Levinson
                    Inspector General

                     October 2010
                     A-03-09-00368
                    Office of Inspector General
                                      http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF) administers the Head Start
program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5 percent cost-of-living increase and bolster
training and technical assistance activities.

Philadelphia Parent Child Center, Inc. (the Center), a nonprofit agency, operates a Head Start
program that provides education, health, and social services to low-income preschool children
and their families at locations within the Philadelphia area. The Center provides these Head Start
services in its own classrooms as well as through the Center’s delegate agency, Norris Square
Civic Association, and its three collaborative agencies: Asociacion de Puertorriquenos en
Marcha, Inc., Project Rainbow, and The Lighthouse. The Center also provides various other
services for disadvantaged preschool children and their families.

The Center is funded primarily through Federal and State Government grants. For the fiscal year
November 1, 2008, through October 31, 2009, ACF awarded Head Start grant funds to the Center
totaling $6,145,071. The Center was not awarded Recovery Act grant funding for training or to
upgrade Head Start centers and classrooms for the fiscal year November 1, 2008, through
October 31, 2009. However, ACF did provide the Center’s program with a Recovery Act funded
cost-of-living increase of $91,386 and quality improvement payment of $229,403.

OBJECTIVE

The objective of our limited scope review was to assess the Center’s financial viability, capacity
to manage and account for Federal funds and to operate its Head Start program in accordance
with Federal requirements.

SUMMARY OF FINDINGS

Based on our assessment, we believe that the Center currently is not financially viable, has
limited ability to account for Federal funds, and is not capable of operating a Head Start program
in accordance with Federal requirements. Our review identified weaknesses relating to the
Center’s financial viability, fiscal staff, accounting system certification, in-kind valuation and
reporting, and the reasonableness of employee compensation.



                                                 i
RECOMMENDATION

In determining whether the Center should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the Center’s ability to account for and manage Federal funds and to operate a Head
Start program.

GRANTEE’S COMMENTS

In written comments on our draft report, the Center neither agreed nor disagreed with our
findings. However, the Center provided information as to action it has taken since our review as
well as additional information related to some of our findings. The Center’s comments are
attached as the Appendix. We are excluding attachments totaling 65 pages because of their
volume.

OFFICE OF INSPECTOR GENERAL RESPONSE

The Center’s written comments provided additional information and described actions that it has
taken, but we did not verify the validity of the additional information provided. Accordingly,
nothing in the Center’s comments has caused us to change our findings or our recommendation
to ACF.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              Philadelphia Parent Child Center, Inc. ...............................................................1
              Federal Requirements ........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATION.............................................................................4

          FINANCIAL VIABILITY .............................................................................................4
               Decline in Liquidity ...........................................................................................4
               Administration for Children and Families Disallowance ..................................4

          FISCAL STAFF .............................................................................................................5

          ACCOUNTING SYSTEM CERTIFICATION .............................................................5

          IN-KIND VALUATION AND REPORTING ..............................................................5

          REASONABLENESS OF EMPLOYEE COMPENSATION ......................................6

          RECOMMENDATION .................................................................................................6

          GRANTEE’S COMMENTS..........................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................7

APPENDIX

          GRANTEE’S COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private nonprofit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5 percent cost-of-living increase and bolster
training and technical assistance activities.

Philadelphia Parent Child Center, Inc.

Philadelphia Parent Child Center, Inc. (the Center), a nonprofit agency, operates a Head Start
program that provides education, health, and social services to low-income preschool children
and their families at locations within the Philadelphia area. The Center provides these Head Start
services in its own classrooms as well as through the Center’s delegate agency, Norris Square
Civic Association, and its three collaborative agencies: Asociacion de Puertorriquenos en
Marcha, Inc., Project Rainbow, and The Lighthouse. The Center also provides various other
services for disadvantaged preschool children and their families.

The Center is funded primarily through Federal and State Government grants. For the fiscal year
November 1, 2008, through October 31, 2009, ACF awarded Head Start grant funds to the Center
totaling $6,145,071. The Center was not awarded Recovery Act grant funding for training or to
upgrade Head Start centers and classrooms for the fiscal year November 1, 2008, through
October 31, 2009, but ACF did provide the Center’s program with a Recovery Act funded cost-
of-living increase of $91,386 and quality improvement payment of $229,403.




                                                 1
Federal Requirements

The Head Start Program Performance Standards, found at 45 CFR §§ 1301 through 1311,
establish regulations applicable to program operations, administration, and grants management
for all grants awarded under the Head Start Act. Section 1301 of the Performance Standards
establishes regulations applicable to program administration and grants management for
grantees, including accounting system certification (§ 1301.13), non-Federal share requirements
(§ 1301.20), administrative cost limitations (§ 1301.32), and requirements for written personnel
policies for staff, including employee background check (§ 1301.31).

Section 642(i) of the Head Start Act states that, in order to receive funds under this subchapter, a
Head Start agency shall document strong fiscal controls, including the employment of well-
qualified fiscal staff with a history of successful management of a public or private organization.

Federal requirements (45 CFR § 74.23 (i)) require supporting records for in-kind contributions
from third parties. “(1) Volunteer services shall be documented and, to the extent feasible,
supported by the same methods used by the recipient for its own employees, including time
records. (2) The basis for determining the valuation for personal service, material, equipment,
buildings and land shall be documented.”

Nonprofit organizations that receive Head Start funds must comply with Federal cost principles
found at 2 CFR part 230 (formerly Office of Management and Budget (OMB) Circular A-122).
Appendix B of the requirements (2 CFR, pt. 230, App. B § 8.c.2) states that when the
organization is predominantly engaged in federally-sponsored activities and in cases where the
kind of employees required for the federal activities are not found in the organization’s other
activities, compensation for employees on Federally-sponsored work will be considered
reasonable to the extent that it is comparable to that paid for similar work in the labor markets in
which the organization competes for the kind of employees involved.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to assess the Center’s financial viability, capacity
to manage and account for Federal funds and to operate its Head Start program in accordance
with Federal requirements.

Scope

We performed this review in response to a June 19, 2009, limited scope request from ACF.
Therefore, we did not perform an overall assessment of the Center’s internal control structure.
Rather, we reviewed only the internal controls that pertained directly to our objectives. Our
review period was November 1, 2005, through June 30, 2009.

We performed our fieldwork at the Center’s administrative office, delegate agency, and three
collaborative Head Start agencies in Philadelphia, Pennsylvania, during August 2009.



                                                 2
Methodology

To accomplish our objectives, we:

   •   reviewed relevant Federal laws, requirements, and guidance;

   •   reviewed the Center’s Head Start application and supporting documentation;

   •   reviewed Federal Head Start grant award documentation to determine the Center’s total
       Head Start and Recovery Act Federal funding;

   •   interviewed the Center’s personnel to gain an understanding of its accounting system,
       accounting controls for the procurement and payment process, and current accounting
       system certification;

   •   reviewed the Center’s audited financial statements for fiscal years 2006 through 2008;

   •   reviewed the Center’s bank statement reconciliations for the period November 2008
       through June 2009;

   •   performed ratio analyses of the Center’s financial statements for fiscal years 2006
       through 2008;

   •   reviewed the Center’s 2009 wage and salary compensation documentation;

   •   reviewed the Center’s personnel activity reports for 11 employees for the period May
       through June 2009;

   •   reviewed the Center’s procedures for monitoring it’s one delegate and three collaborative
       agencies;

   •   reviewed the Center’s delegate and collaborative agency volunteer activity forms for the
       period April through June 2009; and

   •   interviewed ACF personnel and reviewed documentation on its pending disallowance and
       the subsequent Departmental Appeals Board’s ruling for the Center’s non-Federal share
       grant requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                                FINDINGS AND RECOMMENDATION

Based on our assessment, we believe that the Center currently is not financially viable, has
limited ability to account for Federal funds, and is not capable of operating a Head Start program
in accordance with Federal requirements. Our review identified weaknesses relating to the
Center’s financial viability, fiscal staff, accounting system certification, in-kind valuation and
reporting, and the reasonableness of employee compensation.

FINANCIAL VIABILITY

Decline in Liquidity

The Center’s financial viability has generally declined from fiscal year 2006 through 2009. As
part of our ratio analysis of the Center’s financial data, we reviewed the current asset balance and
current liability balance at the end of each fiscal year. Current assets generally represent cash
and other assets that the facility can convert to cash within 1 year and current liabilities are
generally liabilities that the facility expects to pay off within a year. We generated a current
ratio–the relationship of current assets to current liabilities–to determine the Center’s ability to
pay its current obligations.

                                       The Center’s Financial Status

         Fiscal Year                  2006                2007                2008                2009 1
     Current Assets                $2,486,024          $4,715,020           $5,751,204          $6,410,298
     Current Liabilities           $2,179,568          $4,562,222           $5,686,837          $7,441,242
     Difference                      $306,456            $152,798              $64,367         ($1,030,944)

     Current Ratio                    1.14                1.03                 1.01                0.86

During the first 7 months of fiscal year 2009 (November 1, 2008, through May 31, 2009), the
Center’s current liabilities exceeded its current assets by $1,030,944, which led to a current ratio
of less than one. In addition, the Center’s current ratio has continued to decline from fiscal year
2006 through 2009. At the time of our review, there was a risk that the Center might have to
incur additional debt to pay its fiscal year 2009 expenses.

Administration for Children and Families Disallowance

ACF performed on-site reviews of the Center during fiscal year 2007, and determined that the
Center did not meet the non-Federal share grant requirements. Specifically, ACF found that the
Center’s cost sharing and matching documentation did not support the claimed costs. Pursuant
to Section 640(b) of the Head Start Act, ACF issued a disallowance in the amount of $1,590,081.
The Center appealed ACF’s disallowance and, in December 2009, the Departmental Appeals
Board for the Department of Health and Human Services (DAB) upheld portions of the
disallowance totaling $995,427 (Philadelphia Parent Child Center, Inc., DAB No. 2297 (2009)).
1
  Fiscal year 2009 financial statements were not yet prepared at the time of our review. The financial data is from
the Center’s unadjusted and unaudited financial ledgers as of May 31, 2009.


                                                          4
The Center was unable to provide additional supporting documentation and is required to refund
the Federal Government the disallowed amount. At this time, the Center does not have enough
current assets to meet its current liabilities and the addition of this disallowance will put a further
burden on its ability to remain financially viable.

FISCAL STAFF

Section 642(i) of the Head Start Act states, that in order to receive funds under this subchapter, a
Head Start agency shall document strong fiscal controls, including the employment of well-
qualified fiscal staff with a history of successful management of a public or private organization.
The Center does not have a Director of Finance to oversee its financial system. During April
2009, the Center fired its Director of Finance. As of August 2009, the position has not been
filled. The Center has advertised the vacancy and is in the process of interviewing candidates,
but the position remained open at the time of our review.

ACCOUNTING SYSTEM CERTIFICATION

Pursuant to 45 CFR § 1301.13, grantees, upon request from the Department of Health and
Human Services, shall submit an accounting system certification. This certification must
be prepared by an independent auditor and must state that the accounting system or
systems established by the grantee has appropriate internal controls for safeguarding
assets, checking the accuracy and reliability of accounting data, and promoting operating
efficiency.

The Center was unable to provide a current accounting system certification. In October 2008,
ACF requested that the Center, as a requirement to be removed from high risk status, obtain an
independent accounting system certification. The Center has attempted to attain a certification,
but the most recent independent accountant’s report, dated February 2009, still cites several areas
of material non-compliance and did not certify the Center’s accounting system.

IN-KIND VALUATION AND REPORTING

Federal regulations (45 CFR § 74.23 (i)) require supporting records for in-kind contributions
from third parties. “(1) Volunteer services shall be documented and, to the extent feasible,
supported by the same methods used by the recipient for its own employees, including time
records. (2) The basis for determining the valuation for personal service, material, equipment,
buildings and land shall be documented.”

The Center did not value or account for the non-Federal matching portion of its budget in
accordance with Federal requirements. As part of its Head Start program, the Center works with
one delegate agency, Norris Square Civic Association, and three collaborative agencies:
Asociacion de Puertorriquenos en Marcha, Inc., Project Rainbow, and The Lighthouse. These
agencies provide data to the Center on parent and volunteer activity for use in the Center’s
calculation of the non-Federal in-kind matching percentage. The data is collected on volunteer
activity forms and transmitted to the Center.




                                                   5
Our review of volunteer activity forms for April through June 2009 found that the delegate and
collaborative agencies did not maintain properly verified and certified volunteer activity forms.
The Center did not ensure that the data from these forms, which the Center used as part of its
non-Federal in-kind match calculation, was accurately recorded, compiled, and transmitted.
Without accurate information documenting the time volunteers actually spent in Head Start
activities, we were not able to determine whether the Center is correctly claiming volunteer
involvement as part of its in-kind matching valuation.

REASONABLENESS OF EMPLOYEE COMPENSATION

Appendix B of the cost principles (2 CFR, pt.230, App. B § 8.c.2) states that when the
organization is predominantly engaged in federally-sponsored activities and in cases where the
kind of employees required for the federal activities are not found in the organization’s other
activities, compensation for employees on Federally-sponsored work will be considered
reasonable to the extent that it is comparable to that paid for similar work in the labor markets in
which the organization competes for the kind of employees involved.

The Center did not establish the reasonableness of employee compensation for fiscal year 2009.
The Center provided two independent Head Start compensation surveys published in November
2007 and March 2009 as documentation of the reasonableness of employee compensation for
fiscal year 2009. However, these surveys did not provide comparable compensation for all of the
positions listed at the Center. For example, the November 2007 survey did not list the Center’s
positions of President/Chief Executive Officer and Executive Vice President and the March 2009
survey did not list the Center’s position of Executive Vice President. In addition, the Center did
not provide a comparison of all of the Center’s positions that were on the surveys and the
handwritten comparisons that were performed on the March 2009 survey were only completed
after our request for a wage comparison.

RECOMMENDATION

In determining whether the Center should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the Center’s ability to account for and manage Federal funds and to operate a Head
Start program.

GRANTEE’S COMMENTS

In written comments on our draft report, the Center neither agreed nor disagreed with our findings.
However, the Center provided additional information related to some of our findings. Regarding its
financial viability, the Center stated that the May 2009 Consolidated Balance Sheet did not
contain an unposted $1 million receivable and stated that the DAB did not render an amount in
its decision to partially uphold the ACF disallowance. Regarding reasonableness of
compensation, the Center also stated that President/Chief Executive Officer and Executive Vice
President were corporate titles for positions held by the Head Start Director and Early Head Start
Director, whose compensation levels were reasonable. Additional comments described the
actions the Center has taken since our review.



                                                 6
The Center’s comments are included as the Appendix. We are excluding attachments totaling 65
pages because of their volume.

OFFICE OF INSPECTOR GENERAL RESPONSE

During our audit, the Center did not provide us with information on a $1 million unposted
receivable that should have been included in the May 2009 Consolidated Balance Sheet.
Through discussions with officials from the Center, we kept them aware of our review of the
Center’s financial viability and the asset and liability conclusions that we were reaching. On
December 31, 2009, the DAB upheld portions of the disallowance totaling $995,427. The detail
for the partially upheld total can be found at Philadelphia Parent Child Center, Inc., DAB No.
2297 (2009). The Center did not provide support of a wage comparison between an allocation
of the President/Chief Executive Officer’s salary to the Head Start Director salary in the 2007 or
2009 compensation surveys or the Executive Vice President’s salary to the Early Head Start
Director salary in the 2007 or 2009 compensation survey. Accordingly, nothing in the Center’s
comments has caused us to change our findings or our recommendation to ACF.




                                                7
APPENDIX
                                                                                                                        P age l of l O


                       APPENDIX: G RANTEE' S COMM.ENTS


                                                  ""UN' (!!ILI (lNn_, INC.
                                                  ~"'-C",-, ........... &C~




~C~
~




_..
~"..,...
""" ........

       .....,..

-
--
-...-,

~~
-~,
                   Sl<pbo::n Vl...:.11 

                   ~ I~tua",'-'
                   0Ifi.... of IlWit

                   l~S 1~"""l>I'UW"",

                                         Str-,,,,,,,
                   ""'..Jo1fI\ia. l'A 1910l\.-).j~¥ 

                                                       r..- ..wo1it s"",ic"" 

                                                       R~ ~
                   I'Ublic l«'W"\' /lo.nl, ~ " .. :!niK- Jl(' 

                                                                    





~-­
c.M.,udn
~-.                         KB: II""", I'urnl>Ot 11-1l3--)94J30l1

                   Do. .. ~I , Vlrblt!i:y:

                   j~ )'OUt dio< ''''''," "" A~.. t 11\ ) 0 IO. ,..;!h MrJ , I""""");",,    a..." ~".,\,'" "" •
                   two wCO" . , ,,,,,,100 '0 l'< """~ ", tI... '1(e", [t    of,..,
                                                                                 !;m;",j ~.ope n.v:I,,,, of "'"
                   Phll..Joilj,IA!'''~L1' C'i\J e .. ,,, •. Inc", ...., ••'" """I~",d ••" ","poll.'" ~, ''''' .ho.,~<
                   .. fO<,,~     ,",n "l"'~ i!;).1M July , w in
                   Th, ll<,.... ;, 101"'''''''- !I.o..tlof >Ill ""I"""':"""" """"''''''11 t>: OO"'" ,
                   .........".01 """ ord.. "'I"" w boo u.:l"""-l i, th< ,.mlk !»,~:u o ~ ,110 ntn Web
                   ~




                    r(' c.!1.b.-,A
                   S;··:~1.




                   J~hl~ lI't "". Sr.. 0.."""" 

                   "'...., o' I)j...,... 

                  t..4. l.,o.ll,d Pit",". II""" J.1..""'~" on.., "r Audit ~rvi<:lj
                                   M, n....... :,,,-,,,,",,,,' (EO 

                       J",,~ \¥: l h,"                         &;
                                                                                                        Page 2 of 10




FINANCIAL VIABIL ITY

Findin,..
                                                                              2006 through
The Center's fInancial viability has generally declined from fIscal year
                                      of the Center's  financial  data,  we reviewed   the current
2009. As part of our ratio analysis
                                                                                Current assets
asset balance and current liability balance at the end of each fiscal year.
                                                                               cash within I
generally represent cash and other assets that the facility can convert to
                                                                                to pay offwithi n
year and current liability are generally liabilities that the facility expects
                                            relation oCcurren   t assets to current liability-to
a year. We generated a current ratio-the
determin  e the Center's ability to pay its current obligatio ns.


Response:
                                                                       during their visit
The May, 2009 Consolidated Balance Sbeet given to the OIG auditors
            ete and did not contain the month-en d general ledger journal entries.
was incompl
                                                                            Presiden t of
During their brief visit, the auditors met with the President/CEO, Vice
                                              to discuss  the progress oftheir audit. If,
Administration, CEO and Fiscal Manager
            of those meetings   , they had mentione  d this finding andlor concern,   we would
during one
                                                     un-poste  d month end grant  receivab  le in
have gladly informed them that it was due to an
                      for  one of  our other major  cost rebnburs ement  program   s. The
exeess of $1 million
                                                                            balance sheet
posting oflhis receivable would have eliminated the loss shown in the
                             Under   normal  circumst ances,  the May  mooth-e  nd journal
reviewed by the auditors.
                                                                                    of Finance
entries are performed following review of the general ledger by the Director
                               are  normally complete  d within  30-45 days.  Howeve   r, due to
andlor Fiscal Manager, and
                                                                                as welt as
the fiscal demands ofthe additional Head Start review and the OIG audit,
                                                                             the fiscal staff was
operating with a skeleton crew as a result of scheduled vacation leave,
approximately 2 weeks behind their routine schedule.
                                                                              over $6 million vs.
 Our draft audit report for the same program year shows current assets
 current liabilities under $5.7 million.
                                                                               the result of annual 

 The decline in our fund balance during the past several years has been
          tion expenses  in excess  of$1  00,000, which  are  a direct  result ofbuitdi ng 

 deprecia
                                                                              Start and Early 

 expansions needed to provide continued services to the eligible Head
                our assigned  geograp  hic area  However   , due to the   creation of a day care 

 Head Start in
                                                      2009,  our  draft  audit report wilt have a 

 wrap around program for Head Start children in
 increase in our fund  balance  for the fiscal year-end ed  10131109 . 

                                                                                                        Page 3 of 10




Administration for Childre n and Families Disallowance
                                                                              Appeals Board for
The Office ofInspec tor General 's Report states that the Departmental
                     Health and Human    Services  partially upheld    the disallow   ance in the
the Department of
                                                         with   this statemen  t  because  the
amount of $995,427. Thls is incorrect. We disagree
                         Board  did not reader an  arnouot.   In correspo   ndence   dated   January
Departmental Appeals
                                                             states  that, "we  reverse   in  part
4,2010 (see attached) the Departmental Appeals Board
                          costs for FY2007   and  remand   the  case  to  ACF  to  detennin   e the
 and affirmed in part the
                                                                               our determinations
 allowable amount ofPPCC 's non-federal expenditures consistent with
                                                                                       ACF should
 as to the types of documentation that are acceptable. As part of this process,
                                                                                ACF should then
 consider information that PPCC provides as permitted in our decision.
                                                                             wrinen notice of its
 recalculate the disallowance and, for any amount disallowed, issue a
                                                                                  disallowance.
 calculation of the amount of non-federal expenditures and any resuiting
                                 determin ation to the Board   within    30 days   after receiving
 PPCC may appeal the wrinen
                                                                                 issues we fully
 it, under the procedures at 45 C.F.R. Part 16, except with respect to the
resolve in this decision
                                                                                       tation and
The DIG report states that PPCC was unable to provide supporting documen
                                                                                 amount. We
therefore is required to refund the Federal Government the disallowed
                                                                                    ng
disagree with this statement because PPCC did submit additional supporti
         tation  to Region   III on  February 4, 2009  (see attached ).   In a  letter dated 

documen
                                                                                    attorney stated 

February 9, 2010 to Nancy Elmore, Regional Program Manager, PPCC's
             hand  delivere d to  the Regiona l Office addition al documen     tation  supporting 

that he had
                                                year 2007.  The  case   is still in the appeal
PPCC's in-kind contributions for program
process and   no decision has    been made  regardin g the disallow ance.


                                                                      assets to meet its
 The OIG report also states that PPCC does not have enough current
                      We disagree with this statemen t because the Departm ental Appeals
 current liabilities.
                                                                       determined. The
 Board has not rendered a decision; therefore an amount has not been
                                                                            g the
 case is stin in the appeal process and no decision has been made regardin
 disallowance.
                                                                                   of Head
 In a letter dated February 24, 2009, from Patricia Brown, Acting Director, Office
                                                                           Board directive
 Start, disallowing $1,383,595.02, ACF ignored the Departmental Appeal
    clearly  infonn PPCC  why  the documen tation was inadequa te (see January 4, 2009
 to
                                                                       PPCC's concern
 letter attached). The Board also noted that ACF never responded to
 regardin g the disallowances.
                                                                             for the required
 As a matter of record, it should be noted that PPCC requested a waiver
                                                   l Program    Manager , Region  111. The 

 non-federal share from Nancy Elmore, Regiona
                              on theoriter ia establish ed in the Head Start Act,  a waiver can 

 request was denied.  Based
 be granted based on meeting one of five criteria (see    attached ). ppec   met at  least two of 

  the criteria
                                                                                             Page 4 of 10




Page 2

PPCC would like to note that as their Delegate Norris Square Civic Association (NSCA)
had the responsibility fOT ensuring that the agelJcy met the federal guidelines related 10
non~fcdera1 match in addition to other fiscal requirements of the grant. However, in spite
oflhe face that NSCA was cited numerous times in the DIG report. the agency was
recently awarded over nine million dollars of ARRA funds. It would appear that ifPPCC
was being audited for the purpose ofdetermining whether it was eapable of managing
ARRA funds, for which it did not apply,the DIG report should have eoncluded!hat
NSCA did not have the ability to account for and manage Recovery Act funds based on
their report. COl,lSidering the number of reviews and audits that ppee undtlWtnt within
an 18 month period at the request of the Nancy Elmore, Regional prognun Manager, it
appears that PPCC is being tJ'catcd unfairly.
                                                                                             Page 5 of 10




FISCAL STAFF

The OlG Reports in accordance with Section 642(i) of the Head Start Act that in order to
receive funds under this subchapter a Head Start agency must documcnt strong fi9CB.I
controls, including the employment ofa well-qualified fiscal staff, etc. We disagree with
this statement because all of the positions in the FiSlCal Department were filled with the
exception of the Director of Finance. PPCC was fortunate to have il$ former CFO
available on a regularly scheduled weekly basis 'NOrking as coll5u1tant. Incidentally the
consultant wol ked as a consultant for, a contractor for ACF at Region m as a Fiscal
Speciallit. Thc advantages of having the fonner CFO assisting the Fiscal staffwas that
she was not only qualified to handle the fiscal needs ofthe agency, but also familiar with
the organization's structure and the Head Start grant requirements. PPCC's Board and
Executive Management staffwas extremely comfOTlabJe with this arrangement, and
confident that the agency's financial viability would not be compromised during the time
that the agency searched for a qualified person to permanently fill the position. Please
note that the consultant also helped to train the candidate once hired.

AeF', requirement that the Regional Office approve certain key posilions dela~
PPCC's ruring the candidate. Once PPCC's Personnel Committee had made their
selection.ofa candidate at their meeting on July 29, 2009 (see attached), we immediately
sent the package to our program specialist for review and approval. We scnt a follow-up
e-mail to Joseph Mistretta, Program Specialist inquiring about the status of our request
for approval on August 21, 2009 (sec attached). We did not receive the lener approving
the candidate until after September 8, 2009 when the letter was stamped by Region IJL
                                                                                             Page 6 of 10




ACCOUNTING SYSTEM CERTIFICATION

Finding:

Pursuant to 45 CFR 1301.13, grantees, upon ~uest from the Department of Health and
Human Services, shall submit an acc:ouoting system certification. This certificat ion must
be prepared by lUI independent auditor and must state that the accounting system or
systems established by the grantee has appropriate internal controls for safeguarding
assets, checking the accuracy and reliability ofacrounting data, and promoting operating
efficiency.

The Ccnl.el' was unable to provide 8 current accounting system certification. In October.
2008, ACF requested that the Cenler~ as a requirement to be removed from high risk
status, obtain an independent accounting system certification. The Center has attempted
to attain a certificntion, but the most recent independent accountant's report, dated
February 2009, still cites several areas of material non-rompliance and did not certify $c
Center's accounting system.

RESPONSE,

PPCC hu corrected the accounting system non-compliances outlined in the independent
auditing finn's (Milligan & Company. LLC) initial rePort dated February 1J, 2009.
Milligan & Company was engaged to pcrfoffil a follow-up to the previous report to
detennine whether the findings noted in the report were still applicable.

Attached is a copy of the follow-up Certification Report issued by Milligan & Company
on October 16, 2009. As you can, no instances of material ooo-(;()mpliance wac: noted.
                                                                                               Page 7 of 10




IN-KIN D VALUATION AND REPORTING


Finding:

Federal Regulations (45 CFR 74.23' (i) require supporting records for in-kind
contributions from tlrini parties. "(1 )Volunteer services shall be documented and, to the
extent feasible, supported by the same methods used by the recipient for its own
employce.~ including time records. (2) The basis for determining the valuation for
personal servi~, material, equipment, buildings and land shall be documented."

The Center did nol value or account for the non-Federal matching portion of its budget in
lICCOl"dance with Federal regulations. As part of its Head Start program, the Center works
with one delegate agency, Noms Square Civic Association. and three collaborative
agencies: Associacion de Puertorriquenos en Marcha, lnc., Project Rainbow. and The
Lighthouse. These agencies provide data to the Cenler on parent and volunteer activity
for use in the Center's calculation of the non-Federal matching pe«;entage. The data is
collected on voh.mteer activity fonns and transmitted to the Center.

Our review ofvoluntecr activity fonns for April through June 2009 found that the
delegate lind collaborative agencies did not maintain properly verified and certified
voll.lllteer activity forms. The Center did not ensure thai the data from these forms, which
the Center WJCd as part of its non-Federal in-kind match calculation, was aCOJBlely
recorded, compiled. and transmitted. Without accurate information documenting the time
volunteers actually spent in Head Start activities, we were not able to determine whether
the Center is correctly claiming volunteer involvement as part of its in-kind matching
val uation.


Res ponse:

        During April, 2009 our De.!egale and Collabomtive Programs were provided with
copies of our revised volunteer activity fonn approved by the Regional Offic.c:. All the
required infonnation 10 ensure compliance with Federal regulations 45 CFR 74.23(i) Wl\S
incorporated into the form. including confllDlation ofappropriate signature and footing of
calculations by the fiscal department. Training on evaluation and doewnentation was
also provided by our Collaborative Monitoring Team and fiscal staff.

        Because of the number of man-hours that 'WOuld be needed to perl'onn a 100-/ .
monthly verification oftbe volunteer fonns generated by the Delegate alone, it was our
plan to lest samples of the volunteer activity fonns during Out fiscal monitoring visits in
Septcmber,2009.
                                                                                            Page 8 of 10




IN-KlND VALUA TION AND REPORTING
Page 2


        However, since we were informed ofthis finding at the e;Ot conference, all ofthe
non-Federal match volunteer activity foons submitted by the Delegate and Collaborative
partners fo r the fiscal year ended October, 2009 were reviewed by PPCC's fiscal staff to
ensure that the-data was accurately valued, recorded, compiled arid calculated.
Unsupported OK;tivily resulted in an adjustment to our general ledger.
                                                                                              Page 9 of 10




REASONABLENESS OF EMPLOYEE COMPENSATION

The auditors report states that PPCC did not establisb the reasonableness of emplo~
compensation for the year 2009. Surveys presented did not provide comparable
compensation for all positions.

Appendix B oftbe cost principles(2CFR.pt230,App.B&8.c2) stales that when the
organization is pm1nminantly engaged in fedetal1y.sponsored activities an in cases wnere
the kind of employees RqUired for the federal activities are not found in the
organization's other activities, eompensation for employees on Pederally.sponsored work
wiU be eonsidcrcd reasonable to the extent that it is comparable to that paid for sim.ilu
'WOI"k in the Jabor nwkets in which the organizalion competes for the kin ofemployees
involved.

                                    wrRODUCTION

 There was no salary survey available for the Head Start programs within the PhiladeJphia
 area. The Philadelphia Parent Child Center developed and provided the salary survey
 instrument for the Head Start Director's Allianoe ofPhilade1phla and Vicinity for the
'2007 compensation report.

The primary focus of the auditors report was concerned with the salary paid to the
President/CEO and the Executive Vice Prosidenl These positions are mixed positions
and provide the over all direction for the agency as well as ovenight to Head Start and
Early Head Start.

The President. CEO is the cocporate title which also ser.-ed as the Head Start Director.
The Executive Vice Presidem is the corporate title also served as the Early Head Start
Director. These positions provided administrative direction and oversight for their
respective programs.

It was established in the 2007 compensation survey for the above positions that the
compensation was indeed reasonable and in line with similar positions and in some casea
the salaries were lower that those surveyed.


                                   Salary Survey Process

For the 2007 survey, PPCC took the lead role by developing a Survey Instrument as an
initial step. Salary surveys wece not available foc the Phiiadelp\:lia Head Start programs.
It was explained at the time the saJary survey results were distributed to the Head Start
Director's Alliance that "This year's (2007) survey is the initial attempt to aeate a
compensation study that reflects the Head Start programs in the GTeater Philadelphia
"",-"
                                                                                              Page 10 oflO




                                               2


The Philadelphia Parent Child Center developed the survey instrument and was
responsible for collecting and gatheflng the data The survey reflected the programs
within the Head Start Directors Alliance that provided input. (Exhibit A)

The Philadelphia Parent Child Center was instrumental in pushing for a state wide
survey. The Executive Vice President had volunteered to belp design the survey. It was
later decided to contract out the Salary Survey process to a consulting organization.

                                    o I G AuditlReview
The OrG audit/review took place in August 2009, one ofilve Reviews andlor Inspections
within a year and half. PPCC was involved in the State wide salary survey during 2008 .
The state survey was published in March of2009. The state wide survey does not
accurately reflect the economic condition ofthe large urban areas. The survey reflects
more the rural and county communities.

PPCC was involved in a Federal Review during that period. The wage data utilized
during 2008 was still in effect. It was the intent ofthis organization to utilize the state
survey data for the fall of2009 since that was the start ofthe agency's fiscal year.
(November I".)

Again the results ofthe statewide survey demonstrated that the salary allocated to the
PPCC Head Start and Early Head Start directors were below those reported. (Exhibit B)

It was stated that the PPCC survey did not include all the agencies positions. Our survey
was intended to study Bench Mark posjtion since the various programs have titles that are
relevant to their particular agencies. Those position not covered by the salary study could
then be positioned utilizing the Classification Method. It was also explained at the time
the 2007 survey was distributed that "In the future lob Titles will include a brief
description of responsibilities so that the data can more closely reflect the actual duties
performed verSes simply attempting to "match up" job titles."


                                         Conclusion

The Philadelphia Parent Child Center utilized the President/CEO and Executive Vice
President in dual roles. The aforementioned titles are corporate title as the individuals
manage the overall corporation. For Head Start the position served as the Head Start
Director and Early Head Start Director respectively. There was no similar position
within the Head Start DiIectors alliance survey report that hold the title President/CEO
and Executive Vice President therefore we surveyed positions that reflected our roles
within Head Start. It was indeed established that a salary allocation for the positions
were reasonable.
